March 21, 2002
Audit Report No. 02-007


The FDIC’s Program for Managing FDIC-Owned
Buildings at Headquarters
                                 CONTENTS


BACKGROUND                                                         1

RESULTS OF AUDIT                                                   3

THE FDIC’S BUILDING MANAGEMENT PROGRAM SHOULD BE
FORMALIZED AND MORE COMPLETE                                       4

      FDIC Perspective on Current Building Management Program      5

      Risks Associated With Not Formalizing or Incorporating
      Additional Program Elements                                  5

RECOMMENDATIONS                                                    7

CORPORATION COMMENTS AND OIG EVALUATION                            8

APPENDIXES

APPENDIX I: SCOPE AND METHODOLOGY                                  9

APPENDIX II: FDIC-INITIATED REVIEWS AND ASSESSMENTS
PERFORMED ON FDIC-OWNED BUILDINGS                                 12

APPENDIX III: PRIOR GAO AUDITS AND NRC STUDY                      13

APPENDIX IV: CORPORATION COMMENTS                                 15

TABLE I.1: FDIC Building Services Contracts Selected for Review   10
Federal Deposit Insurance Corporation                                                         Office of Audits
Washington, D.C. 20434                                                            Office of Inspector General



   DATE:            March 21, 2002

   TO:              Arleas Upton Kea, Director
                    Division of Administration



   FROM:            Russell A. Rau [Electronically produced version; original signed by Russell Rau]
                    Assistant Inspector General for Audits

   SUBJECT:         Report Entitled The FDIC’s Program for Managing FDIC-Owned Buildings at
                    Headquarters (Audit Report No. 02-007)

   This report presents the results of an audit of the Federal Deposit Insurance Corporation’s
   (FDIC) program for managing FDIC-owned headquarters buildings. The objectives of the audit
   were to (1) assess the adequacy of FDIC-owned headquarters building maintenance, repair, and
   improvement plans and (2) review selected building services purchase orders related to
   FDIC-owned and leased buildings to identify potential cost-savings opportunities resulting from
   eliminating unauthorized or unwarranted work. Appendix I discusses our scope and audit
   methodology.


   BACKGROUND

   The FDIC owns three headquarters buildings: the 550 17th Street and 1776 F Street buildings in
   Washington, D.C., and the Virginia Square (VS) building located in Arlington, Virginia. The
   550 17th Street building was constructed in 1963, has approximately 163,000 useable square feet,
   and consists of seven floors above ground and one below-ground level that is used for parking
   and support facilities. The 550 17th Street building includes office space, a cafeteria, parking
   garage, and maintenance areas. The 1776 F Street building was constructed in 1972, has
   approximately
   129,000 useable square feet, and consists of eight floors above ground and three below-ground
   levels that are used for parking and support facilities. The 1776 F Street building includes office
   space, a day-care center, credit union, and security operations center.

   The VS building was constructed in 1991 and includes the Student Residence facility and the
   Office and Training Center facility, which are connected by a ground-level corridor. The VS
   building has approximately 700,000 useable square feet. The Student Residence facility includes
   a hotel with 354 rooms for FDIC travelers, contractors, and training participants and consists of
   11 above-ground floors. The Office and Training Center includes two seven-story towers linked
   by the first six stories. The VS building includes two below-ground parking and support levels.
In addition, the FDIC leases space in four headquarters buildings: the 1700 and 1730
Pennsylvania Avenue buildings, the 1717 H Street building, and the 801 17th Street building.
These leased buildings were included in the scope of our audit only to the extent that we
reviewed contracts that applied to both the FDIC-owned and leased buildings to identify
unwarranted work.

As part of the Division of Administration (DOA), the Acquisition and Corporate Services Branch
(ACSB), Facilities Management Section (FMS), has primary responsibility for managing
FDIC-owned headquarters buildings. DOA’s Year 2001 Annual Performance Plan states that
DOA’s mission is to provide quality and timely human resources, organizational, and
administrative services to support the Corporation in fulfilling its mission. To accomplish this
mission, DOA has an operational goal to ensure FDIC employees are provided a safe and well-
maintained work environment.

FMS’s building management program primarily consists of the (1) day-to-day monitoring,
maintenance, and minor repair to the owned buildings, buildings systems, and equipment and
(2) major non-recurring building repairs and improvements. The FDIC contracts with the firm
Consolidated Engineering Services, Inc. (Consolidated) to provide comprehensive building
engineering services for each of the three FDIC-owned headquarters buildings, including
equipment in the VS Student Residence facility. Consolidated operates, monitors, maintains, and
repairs major building equipment and systems including, among other items, air distribution
systems; all electrical equipment, panels, and distribution centers; natural gas and piping; heating
systems; heating, ventilation, and air cooling (HVAC) system computer controls and monitoring
systems; plumbing systems; sanitary connections from the buildings to the city; hotel mechanical
systems; and water treatment.

Consolidated utilizes the FDIC’s ATLAS 2000 computerized reporting and scheduling system
for inventory, preventive maintenance, and repairs. Consolidated maintains equipment
according to a preventive maintenance schedule outlined in its contract. Consolidated also
performs routine minor repairs (defined contractually as those costing less than $10,000) and,
with approval from the FDIC oversight manager, 1 may perform major repairs (defined as those
costing between $10,000 and $50,000). Repairs greater than $50,000 are subject to competitive
solicitations arranged by the FDIC. Consolidated’s contract was established in March 1999 for a
2-year period with three 1-year extension options, the first of which has been exercised.

In addition to the work performed by Consolidated, the FDIC periodically initiates non-recurring
major repairs and improvements to the FDIC-owned headquarters buildings. These projects are
identified through the daily building management program, periodic building condition
assessments, and observations by in-house staff. The larger projects are tracked using a “capital
projects” list. The “capital projects” list identifies planned projects by building over a 3-year
period with estimates of planned costs. The “capital projects” list as of June 2001 identified 32
projects for the three FDIC-owned headquarters buildings with an estimated cost of $4.7 million.

1
 The oversight manager is a person designated by the program office to monitor the activities of a contractor.
Oversight managers are provided with a letter of oversight manager confirmation from the contracting officer
containing a description of their authority and responsibility in performing designated functions on behalf of the
FDIC.


                                                          2
The FDIC’s annual budget includes expense categories specifically related to building services
for both owned and leased buildings. These categories include maintenance and repairs,
miscellaneous operating expenses, janitorial services, architectural and engineering (A&E) fees,
work in process, and improvements. The FDIC year 2001 budget for these expense categories
totaled $30.1 million, which was $2.8 million or 8.5 percent less than the $32.9 million year 2000
budget. Of the $30.1 million budgeted for 2001, $16.2 million was applicable to the FDIC-owned
headquarters buildings, $2.4 million to the headquarters leased buildings, and $11.5 million to the
field offices.

RESULTS OF AUDIT

The FDIC has systematically planned for non-recurring building repair and improvement
projects. Since August 2000, the FDIC has initiated or completed building condition studies and
assessments covering energy and water use and conservation, electrical systems, and an A&E
survey. The results of these assessments will be used to develop a 5-year non-recurring repair
and improvement projects plan for each FDIC-owned headquarters building. Appendix II
provides a more detailed description of the various conditions assessments, including the status
and results.

In addition, the overall services covered by 12 building-related purchase orders we reviewed were
necessary and justified. These services included basic building services such as janitorial and
cleaning, painting, and carpentry. The contracted services also included other more technical
services required to operate, maintain, and repair the buildings and other services such as interior
space design associated with occupying the buildings. Also, based on a more detailed review of the
task and work orders related to 6 of the 12 purchase orders, we did not identify cost-savings
opportunities resulting from eliminating unauthorized or unwarranted work. The task and work
orders were supported by written requests and proper approvals by contract specialists and oversight
managers, and we did not identify work performed on the leased buildings that conflicted with lease
terms.

Nonetheless, the FDIC does not have a policy that formally establishes its building management
program and its requirements. In addition, the FDIC needs to incorporate additional elements into
its building management program, including project prioritization criteria and deferred maintenance
reporting. FMS staff stated that, historically, the building management program has not been
formalized, although FMS is moving towards a more formalized program through the development
of a 5-year non-recurring building repair and improvements projects plan. The General Accounting
Office (GAO) and the National Research Council (NRC) have conducted audits and a study,
respectively, related to the management of federal buildings and recommended more formal
strategic approaches to building management programs.

Without a more complete and formal building management program, adequate management
controls may not be in place to ensure that DOA’s operational goal of providing employees with
a safe and well-maintained work environment is met, performance initiatives are achieved, and
the continuity of the building management program is ensured. Accordingly, we are
recommending that the FDIC formalize its building management program for FDIC-owned
headquarters buildings by developing a policy that establishes the overall requirement for a


                                                 3
building management program. The policy should require, at a minimum, a 5-year annually
updated building management plan for each FDIC-owned building that includes project cost
estimates, project prioritization criteria (with an emphasis on safety and legally required
alterations), and a deferred maintenance reporting element. Finally, the FDIC should assign a
higher priority to a safety-related project that involves installing fire suppressant sprinkler
systems at the 550 17th Street and 1776 F Street buildings.

THE FDIC’S BUILDING MANAGEMENT PROGRAM SHOULD BE FORMALIZED
AND MORE COMPLETE

The FDIC does not have a policy that formally establishes its building management program and
its requirements. In addition, the program does not include formal project prioritization criteria
or a deferred maintenance reporting requirement. Historically, the FDIC’s building management
program has not been formalized and, accordingly, no policy requiring a program was deemed
necessary. In addition, FMS staff stated that the FDIC prioritizes building projects involving
safety and security and does not presently have a backlog of deferred maintenance projects
(projects that were not performed when they should have been performed and, therefore, are put
off or delayed for a future period). Without a more formal and complete building management
program, the FDIC may not have adequate management controls to ensure that DOA’s
operational goal of providing employees with a safe and well-maintained work environment is
met, performance initiatives are achieved, and the continuity of program management is ensured.

The GAO and the NRC have conducted audits and a study, respectively, related to the
management of federal buildings. In March 2000, GAO issued a report entitled, Federal
Buildings: Billions Are Needed for Repairs and Alterations (GAO/GGD-00-98). The report
emphasized the need for the General Services Administration (GSA) to complete a 5-year
comprehensive buildings repair and alteration plan that identifies total needs, relative priorities,
and funding requirements so that decision-makers have necessary information to make informed
decisions. The types of repairs and alterations needed at GSA buildings included projects similar
to those identified at the FDIC-owned buildings such as electrical, HVAC, and fire alarm and
sprinkler systems. In their response to the report, GSA officials told GAO that the 5-year plan
being developed would be more than a listing of projects and was intended to be an overall
strategy document that would be updated annually so that it would best address current and
future repair and alteration needs.

In April 2001, GAO issued another report entitled, Federal Buildings: Funding Repairs and
Alterations Has Been a Challenge – Expanded Financing Tools Needed (GAO-01-452). GAO
identified significant health and safety concerns at GSA buildings, including a lack of fire
suppressant sprinkler systems. The report stated that the ultimate cost of eventually completing
delayed repairs and alterations may escalate because of inflation and increases in the severity of
the problems caused by the delays. GAO concluded and recommended that GSA reexamine the
weighting of health and safety criteria to ensure that sufficient priority is being given to funding
repair and alteration projects that would prevent or resolve significant health and safety problems
in federal buildings.

In addition, the NRC issued a report in 1998 entitled, Stewardship of Federal Facilities: A
Proactive Strategy for Managing the Nation’s Public Assets. The NRC report discussed the


                                                 4
significance of identifying and quantifying deferred maintenance, especially since a large
proportion of federal buildings are more than 40 years old. The NRC report also noted that
legislative requirements to improve health, safety, or welfare (such as the Americans with
Disabilities Act [ADA] of 1990) have put additional pressure on maintenance and repair budgets
and programs. Appendix III discusses in more detail the results of the two GAO audits and the
NRC report.

Finally, GAO’s Standards for Internal Control in the Federal Government state that “internal
control techniques are to be effective and efficient in accomplishing their internal control
objectives.” Internal control techniques are the mechanisms by which control objectives are
achieved and include, but are not limited to, such things as specific policies, procedures, and
plans of organization. An FDIC policy establishing the requirements of the FDIC’s building
management program would constitute an internal control technique that would provide
additional assurance that DOA’s operational goal of providing employees with a safe and well-
maintained work environment is achieved.

FDIC Perspective on Current Building Management Program

The Assistant Director, FMS, stated that, historically, the building management program has not
been formalized. Therefore, the FDIC does not have an overall policy addressing building
management. Rather, the FDIC relies largely on contractors to accomplish the day-to-day building
management function and its “capital projects” list for long-range building requirements.
Nonetheless, the FDIC’s development of a 5-year building repair and improvement plan (which will
replace the “capital projects” list) is a move towards formalizing the building management program.

In addition, although the FDIC does not have formal prioritization criteria for its non-recurring
repair and improvement projects, the Assistant Director stated that senior management emphasizes
safety and security-related building projects. For example, in light of the events of September 11,
2001, and the possibility of future terrorist threats, the FDIC announced on October 10, 2001 (and
then updated on November 8, 2001) certain building-related physical security precautions.
Specifically, the FDIC stated that it would be installing window mylar at the FDIC-owned buildings
at headquarters and at the FDIC-owned building on Ecker Street in San Francisco to prevent injuries
from window glass fragmentation. In addition, the FDIC is erecting barricades in front of the 550
17th Street building to prevent vehicle access under an existing portico. The FDIC expects to
complete these projects between November 2001 and March 2002.

Finally, both the Assistant Director, FMS, and Consolidated’s on-site project manager stated that
deferred maintenance is not, at present, a problem at the FDIC. The focus of the Consolidated
contract is on preventive maintenance, thereby lessening the likelihood that a backlog of deferred
maintenance projects develops.

Risks Associated With Not Formalizing or Incorporating Additional Program Elements

Without a more formal and complete building management program, the FDIC may not have the
necessary management controls to ensure that DOA’s operational goal of providing employees
with a safe and well-maintained work environment is met, specific performance initiatives are



                                                  5
achieved, and the continuity of program management is ensured. Specifically, without
documented criteria for prioritizing building projects, the risk is increased that safety-related
projects get deferred. For example, the FDIC has identified a project to install fire-suppressant
sprinkler systems at the 550 17th Street and 1776 F Street buildings, but DOA did not consider
the project a high priority and, therefore, the project will not be accomplished until 2004 or 2005.
FDIC management stated that sprinkler systems relate to both property protection and safety.
Given that other FDIC priority repair and improvement projects do not have a safety component
and that management believes in the merits of having sprinkler systems, we believe sprinkler
systems should have a higher priority consistent with DOA’s goal of a safe work environment.

In addition, the DOA Year 2000 Annual Performance Plan included an initiative to “Renovate all
restrooms at Headquarters-owned buildings to be compliant with the Americans with Disabilities
Act.” 2 However, due to unexpected costs associated with re-facing the 1776 F Street building
and unexpected delays associated with developing construction plans and the procurement cycle,
the project was only partially completed. Specifically, the 1776 F Street restrooms were
renovated; however, the 550 17th Street and VS buildings restroom renovation projects were
delayed. The 550 17th Street restroom renovation has since been completed but the VS restroom
renovation has been delayed again due to the need to complete other projects. However, the
Assistant Director, FMS, stated that the VS bathroom renovation project is in the study and
design phase and will be competed in 2002, with work completed in 2003.

Similarly, the FDIC identified in its “capital projects” list a planned fire-alarm upgrade at the VS
building for 2001, but it was cut from the 2001 budget. The Assistant Director, FMS, re-
submitted the project for the 2002 budget. The FDIC’s A&E firm is conducting a system
evaluation and the resulting report will be used to develop a contract for the upgrade or
replacement of the fire-alarm system.

Documenting the criteria for prioritizing projects would help focus attention and budget
resources on projects that sometimes have competing priorities. Specifically, projects related to
the HVAC systems are expected to improve the efficiency and comfort of the buildings. As
previously identified, the VS bathroom renovation project relates to compliance with the ADA.
The safety of employees is addressed by other projects, including upgrading the VS building fire
alarms and the installation of fire suppressant sprinkler systems at the 550 17th Street and 1776 F
Street buildings. Recommendations resulting from the Department of Energy (DOE) energy
reviews identified projects that are expected to have long-term cost savings resulting from more
efficient energy use. The Assistant Director, FMS, acknowledged that balancing the competing
goals of certain projects combined with the annual budget process and limitations as to the
number of projects that can be managed concurrently sometimes results in periodic re-
prioritizations of projects.

Without a requirement to identify and report on both the present and future costs associated with
correcting deferred maintenance projects, the risk is increased that such needs are unknown to
2
  The Legal Division has opined that the ADA does not by its terms apply to the FDIC. However, various provisions of
the ADA have been incorporated into the Rehabilitation Act of 1973, which applies, in general, to federal agencies.
Although the Rehabilitation Act does not specifically apply to the FDIC according to the Legal Division opinions, the
FDIC voluntarily complies with various portions of the Rehabilitation Act.



                                                          6
senior management or increase in severity, thereby possibly compromising the work
environment and resulting in additional costs. We reviewed an ATLAS 2000 report dated
November 6, 2001, and confirmed the lack of deferred maintenance projects. The report
identified 174 work orders that had not been completed, the oldest of which was initiated on
October 1, 2001.

Nonetheless, the present lack of deferred maintenance projects does not ensure such projects could
not arise in the future, especially with the Corporation’s emphasis on containing operating costs and
the aging of the FDIC-owned headquarters buildings. The FDIC 550 17th Street building is
38 years old, and the 1776 F Street building is 29 years old. As the FDIC buildings continue to age,
their need for maintenance will expectedly increase, thereby increasing the importance of
incorporating a formal deferred maintenance reporting requirement into the FDIC building
management program. The deferred maintenance reporting requirement should include reporting to
senior FDIC management both the present and future costs associated with deferred maintenance.
As a result, senior FDIC management would be better informed of any such projects as a basis for
evaluating the overall priority order in which projects should be completed. Additionally, FDIC
management would be kept informed of the cost and other implications of deferring maintenance
activities from one year to another.

Without a more formal and complete building management program, the risk is also increased
that the continuity of the building management program could be impaired if key program
managers and staff leave the FDIC. A more formal and complete program would better ensure
that maintenance, repair, and improvement operations and projects related to corporate priorities
were completed, notwithstanding changes in program management and staff. The Assistant
Director, FMS, acknowledged that the lack of a formal program when she was appointed to her
position in 1999 made it difficult to determine what priority work arising from prior building
condition assessments had been identified and what work had been completed.

Finally, the FDIC spends millions of dollars annually to maintain, repair, and improve the FDIC-
owned buildings. A policy establishing a formal building management program that includes
additional program elements would better establish the relationship and relative priorities
between the day-to-day maintenance program and larger non-recurring repair and improvement
projects and ensure that the FDIC achieves its stated operational goal of providing all employees
with a safe and well-maintained work environment.


RECOMMENDATIONS

We recommend that the Director, DOA:

(1) Develop a policy that formally establishes a building management program for FDIC-owned
    headquarters buildings that incorporates, at a minimum, the following requirements:

•   A comprehensive 5-year building management plan for each facility that is updated annually
    and includes estimated project costs.
•   Prioritization criteria for maintenance, repair, and improvement projects, with an emphasis
    on employee safety and legally required projects.


                                                  7
•   A deferred maintenance reporting requirement that includes both the estimated present and
    future costs to correct deficiencies.

(2) Assign a higher priority to installing fire suppressant sprinkler systems at the 550 17th Street
    and 1776 F Street buildings.


CORPORATION COMMENTS AND OIG EVALUATION

On March 6, 2002, the Director, DOA, provided a written response to the draft report. The
response is presented in Appendix IV to this report. The Director’s response indicated
concurrence with both of the report’s recommendations.

DOA has already taken action on recommendation 1 to develop a policy that formally establishes
a building management program for the FDIC-owned buildings. Specifically, on January 22,
2002, DOA issued a policy memorandum that formally established policy and procedures for
developing and maintaining a repair plan for the FDIC-owned buildings at headquarters and San
Francisco. The policy requires annual plans be developed for the repair of building equipment
and systems and capital improvements. The policy also requires that the plans encompass a
minimum time frame of 5 years and include the estimated project repair and improvement costs.
The policy includes prioritization criteria for projects and a reporting requirement for
maintenance projects that are deferred.

With regard to recommendation 2, DOA completed a building repair plan for each FDIC-owned
building at headquarters that reflects a higher priority on the installation of fire suppressant
sprinkler systems. The repair plans for the 1776 F Street and 550 17th Street buildings indicate
that the sprinkler systems project will be completed in 2003 and 2003/04, respectively. DOA
management further stated that ACSB is currently developing a contract statement of work for
the fire suppressant sprinkler systems project.

The OIG obtained and reviewed DOA’s January 22, 2002, policy memorandum and the FDIC
repair plans for the 550 17th Street and 1776 F Street buildings. We verified that the policy
memorandum adequately addressed the OIG’s recommendation and that the repair plans
assigned a higher priority to installing the fire suppressant sprinkler systems. Therefore, we
conclude that both recommendations have been implemented and are effective and consider the
recommendations closed for reporting purposes.




                                                  8
                                                                                  APPENDIX I

SCOPE AND METHODOLOGY

The scope of the audit included the three FDIC-owned headquarters buildings at 550 17th Street
and 1776 F Street in Washington, D.C. and the VS building located in Arlington, Virginia. On a
limited basis, the audit included the four headquarters leased buildings located in Washington,
D.C., at 1700 and 1730 Pennsylvania Avenue, 1717 H Street, and 801 17th Street. This is the
OIG’s first audit of the FDIC-owned building management program.

To accomplish our audit objectives, we reviewed draft and final reports on the energy and
electrical systems reviews performed on the FDIC-owned buildings. We reviewed the reports to
obtain an understanding of the scope and inter-relationship of the reviews, number and type of
recommendations, and whether any safety-related projects requiring immediate attention were
identified. More specifically, we reviewed draft and final reports covering the DOE energy
reviews conducted in August 2000 on each of the FDIC-owned buildings. We reviewed a draft
contractor report on the results of the electrical systems conditions survey completed in August
2001 covering the 550 17th Street and 1776 F Street buildings. In addition, we interviewed the
Assistant Director, FMS, to determine the scope of the A&E conditions survey on the 550 17th
Street and 1776 F Street buildings.

We also performed the following additional methodology:
• Reviewed the 3-year FMS capital projects list related to each of the FDIC-owned buildings to
  identify the number and type of planned building projects.
• Compared the FDIC year 2000 and 2001 budgets related to building maintenance, operating
  expenses, repair, and improvement to determine the amount and trend of expenditures.
• Assessed DOA’s progress in completing performance initiatives related to headquarters
  building maintenance, repair, and improvement by reviewing DOA’s year 2000 and 2001
  Annual Performance Plans and interviewing DOA staff.
• Reviewed GAO and NRC reports related to federal building management issues, challenges,
  practices, and recommendations to identify potential areas where the FDIC program could be
  improved.
• Evaluated an ATLAS 2000 computer system report dated November 6, 2001, to determine
  the status and number of outstanding building maintenance and repair work orders under the
  Consolidated Engineering contract as a basis for evaluating whether the FDIC has a backlog
  of deferred maintenance projects.
• Reviewed FDIC headquarters building leases to determine lessee and lessor responsibilities
  related to building maintenance, repair, and improvement as a basis for evaluating whether
  cost-savings opportunities existed by eliminating work performed on leased buildings that
  should be a lessor responsibility.
• Judgmentally selected for review 12 purchase orders related to building maintenance, repair,
  and improvement to identify potential cost-savings opportunities. These purchase orders
  covered janitorial, A&E, electrical, construction, painting, fire alarm system, and carpentry
  services. We selected the 12 purchase orders based on an electronic analysis and sorting of
  open and closed purchase orders as of February 6, 2001. Generally, we selected the highest
  dollar purchase orders related to maintenance, repair, and improvement work on the FDIC-


                                               9
    owned and, as applicable, leased buildings. For each of the 12 purchase orders, we reviewed
    the statements of work and other contract file documentation to obtain an understanding of
    the nature and need for the work. Table I.1 identifies each of the contracts selected for
    review, the nature of the contracted services, the total contract dollar ceilings (including
    option years) and total amount paid as of February 6, 2001.

    Table I.1: FDIC Building Services Contracts Selected for Review

                                                                        Not to Exceed           Total Paid as
       Contract Number              Contract Description
                                                                          Amount                 of 02/06/01
      96-01025-C-BKa          Painting & Related Services                      $1,690,000           $1,595,957
      96-01026-C-BKa          Carpentry & Related Services                     $1,950,000           $1,911,675
      97-00083-C-RJ           Electrical Maintenance & Repairs                 $2,790,000           $2,609,434
                              Landscape Architect & Move
      97-00238-C-DSa                                                            $1,900,001          $1,877,646
                              Coordination
                              Interior Construction/Tenant
      98-00850-C-DQ                                                             $4,940,000          $3,453,864
                              Improvement
      98-01057-C-DS           Cleaning/Janitorial                               $4,852,233          $2,322,324
      98-01147-C-DQ           Painting & Related Services                       $2,255,478            $579,800
      98-01330-C-BK           Building Engineering                             $12,500,000          $4,530,386
      99-00127-C-CJ           Carpentry & Repair                                $1,561,560            $510,247
                              Architectural/Engineering –
      99-00621-C-DQ                                                             $1,889,374            $943,827
                              Office Design
                             Fire & Life Safety System
      99-00659-C-DQ                                                           $1,813,805         $1,642,667
                             Installation & Maintenance
                             Exterior Reface to 1776 F Street
      01-00075-C-RJ b                                                         $4,419,406           $302,127
                             Building
    a
      These purchase orders were closed as of our audit sample selection date of February 6, 2001.
    b
       Amount paid as of September 20, 2001.

    Source: OIG review of contract file documentation and reports generated as of February 6, 2001, from the
            FDIC Purchase Order System.

For 6 of the 12 purchase orders,1 we reviewed task and work orders representing approximately
35 percent of the amounts paid under the contracts as of February 6, 2001.2 We reviewed the
task and work orders for evidence of a written request for the work, nature of work performed,
changes and modifications to the work, appropriate FDIC approvals, and applicability to leased
or owned building. The purpose of this review was to identify any cost-savings opportunities
resulting from eliminating unauthorized work, work at the leased buildings that should have been
covered by leases, and unauthorized modifications that increased original task and work order
dollar amounts. However, the scope of our work did not include reviewing contractor invoices
or supporting documentation or verifying that amounts billed on the invoices were reasonable or
in compliance with contract terms.

1
  The six purchase orders included 96-01025CBK , 96-01026CBK, 97-00083CRJ, 98-00850-CDQ, 98-01147CDQ, and
99-00127CCJ.
2
  A task order is a contract awarded under an existing basic ordering agreement, which sets forth terms and conditions to
be applied to future task orders. The FDIC uses the terms task and work orders interchangeably.




                                                           10
We reviewed management controls including FDIC guidelines related to painting and carpeting,
the Facilities Design Guide, the applicability of the ADA or similar statutes to the FDIC, and
FMS’s 3-year list of capital projects planned for each of the owned buildings. We considered
management controls to be adequate except as related to the additional formalization of the
building management program as described in the report.

We relied on computer-processed data from the Purchase Order System to judgmentally select
our audit sample of 12 purchase orders and the ATLAS 2000 System for confirming the lack of
deferred maintenance projects. Although we did not perform a formal reliability assessment of
the computer-processed data, we determined that information in the Purchase Order System
including contract numbers, contractor names, and description of services agreed with the
information in the 12 contract files we reviewed. Further, we did not establish the reliability of
the data in the ATLAS 2000 System because the primary focus of our audit was on high-dollar
building management project plans as opposed to day-to-day building operations and
maintenance performed by Consolidated Engineering and tracked by the ATLAS 2000 System.
However, we did not find any errors that would preclude use of the computer-processed data or
that would materially change the conclusions in the report.

Throughout our audit, we interviewed DOA staff and solicited and considered their comments as
appropriate. We performed our audit between February and November 2001 in accordance with
generally accepted government auditing standards.




                                                11
                                                                                       APPENDIX II

FDIC-INITIATED REVIEWS AND ASSESSMENTS PERFORMED ON FDIC-OWNED
BUILDINGS

The FDIC is developing a 5-year non-recurring major repair and improvement projects plan for
the FDIC-owned headquarters buildings. A draft of the 5-year plan had not been prepared as of
our field work completion date of November 6, 2001. The plan will incorporate the results of
completed and ongoing reviews and assessments.

The DOE completed energy reviews on the FDIC-owned headquarters buildings in August 2000.
In total, the DOE reviews identified 19 energy conservation measures and 3 water conservation
measures that would result in both energy and water savings and, hence, cost savings. The more
significant energy conservation measures were related to updating or converting the HVAC
building systems. The water conservation measures primarily involved installing low flow
faucets and, at the Student Residence facility, low flow showerheads. FMS staff were generally
receptive to the findings in the DOE energy reviews. The Assistant Director, FMS, stated that
the FDIC had already completed three of the energy conservation measures. However, FMS
may consider obtaining a second opinion before undertaking more costly energy conservation
measures related to modifying building air-flow systems to both reconfirm cost estimates and
projected long-term savings.

In addition, an electrical systems conditions assessment was completed in August 2001. The
assessment was performed by a contractor at both the 550 17th Street and 1776 F Street buildings.
The VS building was not included in the survey since it is only 10 years old. The purpose of the
assessment was to review the present condition and evaluate the remaining useful life of the
buildings’ electrical equipment. The contractor developed recommendations ranging from the
minimum requirements needed to update existing equipment to meet the latest standards and code
requirements to the maximum replacement or renovation of the existing equipment. According to
the Assistant Director, FMS, a full system replacement can be deferred for another 3 to 5 years as
long as interim maintenance and renovation is performed. In addition, the FDIC will contract
annually to have the electrical systems re-assessed to determine if the Corporation needs to
accelerate the replacement schedule.

Also, an A&E conditions assessment was in process but had not been completed as of the end of
our audit field work on November 6, 2001. The scope of the assessment includes the 550 17th
Street and 1776 F Street buildings. The VS building will have a conditions assessment performed
on it during 2002. The A&E contractor is assessing all building conditions including mechanical
systems, plumbing, and the roofs.

Finally, FMS developed a 3-year capital projects list for each FDIC-owned headquarters
building. The list will be updated with the results of the completed or ongoing studies and is
subject to revision, re-prioritization, and budgeting constraints. In addition, the projects list is
being converted from a 3-year plan to a 5-year plan. Some of the larger projects include VS
restroom renovations, uninterrupted power source batteries and modules for VS, and electrical
systems work at the 550 17th Street and 1776 F Street buildings.



                                                  12
                                                                                                   APPENDIX III

PRIOR GAO AUDITS AND NRC STUDY

The GAO and the NRC 1 conducted audits and a study, respectively, related to the management of
federal buildings. We reviewed these reports and compared the results and practices to the FDIC’s
building management program and, where appropriate, identified areas where the FDIC program
could be more formal and complete.

Specifically, in March 2000, GAO issued a report entitled, Federal Buildings: Billions Are
Needed for Repairs and Alterations (GAO/GGD-00-98). Beyond identifying the need for
substantial additional funding, GAO noted that “…GSA does not have a comprehensive plan that
(1) identifies its total repair and alteration needs and corresponding funding requirements and (2)
establishes the relative benefits or priorities of all competing projects….” However, GAO noted
that “GSA’s initiative to develop a comprehensive plan that will identify, in priority order, the
repair and alteration work that needs to be funded within a 5-year period should go a long way
toward providing key decision-makers the needed context to fully understand what needs to be
done and how best to do it.” Based on our follow-up with both GAO and GSA, we determined
that GSA had not completed its 5-year plan as of October 11, 2001.

In addition, in April 2001 GAO issued a report entitled, Federal Buildings: Funding Repairs and
Alterations Has Been a Challenge – Expanded Financing Tools Needed (GAO-01-452). GAO’s
work focused primarily on prospectus-level repair and alteration design projects, defined as those
costing $1.99 million or more during fiscal year 2001. GAO stated that GSA’s process for
assessing and selecting prospectus-level repair and alteration design projects for funding emphasizes
a project’s economic return; i.e., projects that maximize GSA’s ability to increase rent revenues
from building tenants. However, GAO collected evidence suggesting that significant health and
safety concerns exist. For example, GAO noted that the lack of sprinkler systems on occupied
floors was one of many conditions that could expose federal employees to unsafe and/or unhealthy
situations. Accordingly, GAO concluded and recommended that GSA reexamine the weighting of
health and safety criteria to ensure that sufficient priority is being given to funding repair and
alteration projects that would prevent or resolve significant health and safety problems in federal
buildings. In responding to the report, GSA officials stated that GSA has made and will continue to
make health and safety issues a major factor in selecting repair and alteration projects for funding.

The NRC issued a report in 1998 entitled, Stewardship of Federal Facilities: A Proactive
Strategy for Managing the Nation’s Public Assets. The NRC report discussed the significance of
identifying and quantifying deferred maintenance. The Federal Accounting Standards Advisory
Board (FASAB)2 defines deferred maintenance as “maintenance that was not performed when it

1
  The NRC was organized by the National Academy of Sciences in 1916 to associate the broad community of science
and technology. The NRC study discussed in this report was supported by a contract between the National Academy of
Sciences and the Department of State on behalf of the Federal Facilities Council.
2
  The FASAB guidelines are not applicable to the FDIC because, as an independent agency, the FDIC follows generally
accepted accounting principles. The FASAB was established in October 1990 by the Secretary of the Treasury, the
Director of the OMB, and the Comptroller General of the United States. FASAB was created to consider and
recommend accounting standards and principles for the federal government to improve the usefulness of federal financial
reports.


                                                          13
should have been or was scheduled to be and which, therefore, is put off or delayed for a future
period.” The NRC report states that deferred maintenance is generally quantified as the
estimated cost of the maintenance and repair needed to bring a facility up to a minimum
acceptable condition. In addition, the NRC report noted that legislative requirements such as the
ADA have put additional pressure on maintenance and repair budgets and programs. The ADA
prohibits discrimination against people with disabilities in employment, transportation, public
accommodations, communications, and activities of state and local government. The ADA
requires the removal of barriers from existing facilities, if this is readily achievable, and requires
making the altered facilities as accessible as is feasible. The FDIC Facilities Design Guide states
that “Although not required to comply, FDIC will comply with the ADA to the fullest extent
practicable…when renovating or altering space.” 3

In total, the three GAO and NRC reports identify the need for and recommend more formal strategic
approaches to building management programs. Based on a comparison to the FDIC building
management program, we believe the FDIC could also benefit from some of the practices and
recommendations discussed in these reports.




3
  The Facilities Design Guide provides recommended design and construction practices to ensure that a consistent, cost
effective level of design and technical excellence will be reflected and maintained in each FDIC facility. As noted in
footnote 2 on page 6, the ADA does not apply to the FDIC, but the FDIC voluntarily complies with the Rehabilitation
Act which incorporates certain provisions of the ADA. We have focused on the ADA because a performance standard
established by DOA addressed this issue. However, there are various other laws and building codes that may govern the
FDIC’s facilities. Determining compliance with such other laws and codes was outside the scope of this audit.


                                                         14
                                                                                     APPENDIX IV
                                           CORPORATION COMMENTS

           Federal Deposit Insurance Corporation
           550 17th Street, NW, Washington, DC 20429                                 Division of Administration




                                                                March 5, 2002

MEMORANDUM TO: Sharon M. Smith
               Deputy Assistant Inspector General for Audits

FROM:                          Arleas Upton Kea [Electronically produced version; original signed by
                               Arleas Upton Kea]
                               Director, Division of Administration

SUBJECT:                       Management Response to Draft Report: FDIC's Program for
                               Managing FDIC-Owned Buildings at Headquarters (Audit No. 2001-
                               704)

The Division of Administration (DOA) has completed its review of the subject Office of
Inspector General (OIG) draft report. We appreciate the review performed by the OIG, and its
conclusion that DOA has systematically planned for non-recurring building repair and
improvement projects. We also appreciate the OIG for its acknowledgment and recognition of
the various building condition studies and assessments that DOA has initiated or completed.
Although we are extremely pleased with our current building management program, we
understand that improvements can always be made to enhance operational efficiency. As such,
DOA continuously looks for ways to improve its business operations in the building
management area.

In the report the OIG made two recommendations to DOA under the finding entitled "FDIC's
Building Management Program Should Be Formalized and More Complete." DOA has
reviewed the finding and agrees that the recommended improvements should be made. Outlined
below are the corrective actions DOA has completed to-date and the actions currently in-process.

Management Decision:

Recommendation # 1: Develop a policy that formally establishes a building management
program for FDIC-owned headquarters buildings that incorporate, at a minimum, the following
requirements:

       •         A comprehensive 5-year building management plan for each facility that is
                 updated annually and includes estimated project costs.

       •         Prioritization criteria for maintenance, repair, and improvement projects, with an
                 emphasis on employee safety and legally required projects.

       •         A deferred maintenance reporting requirement that includes both the estimated
                 present and future costs to correct deficiencies.


                                                       15
Management Response # 1: DOA management agrees with the OIG recommendation. On
January 22, 2002, the DOA Acquisition and Corporate Services Branch (ACSB) issued Policy
Memorandum No. 02-001 entitled FDIC Owned Building Repair Plan Policy Memorandum that
formally established the building management program for the FDIC. The policy requires annual
plans be developed for the repair of building equipment and systems and capital improvements.
The repair plans will encompass a minimum time frame of five years and will include the
estimated repair/improvement costs and life cycle information if available. Section V of the
policy contains the prioritization criteria for developing these plans.

Since the issuance of the policy memorandum, DOA ACSB has completed an annual repair plan
in accordance with the criteria outlined in the policy. With the issuance of this policy and the
development of a strategic repair plan, we believe that the real property assets of the Corporation
will be better maintained and that repairs and upgrades will be completed timely.

Recommendation # 2: Assign a higher priority to installing fire suppressant sprinkler systems at
the 550 17th Street and 1776 F Street buildings.

Management Response # 2: DOA management agrees with this recommendation and has
assigned the installation of fire suppressant sprinkler systems at the 550 17th Street and 1776 F
Street building as a priority in the recently completed repair plan. At this time, DOA ACSB is
developing the contract statement of work for the project.

If you have any questions regarding the response, our point of contact for this matter is Andrew
Nickle, Audit Liaison for the Division of Administration. Mr. Nickle can be reached at (202)
942-3190.


cc: Michael Rubino
    Marianne Jentilucci
    Vijay Deshpande




                                                16
